December 20, 2005


MEMORANDUM FOR:            EMILY STOVER DE ROCCO
                           Assistant Secretary for Employment
                            and Training




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Management Letter No. 06-06-003-03-390
                           Grant Implementation Issues
                           National Emergency Grant No. EM-15067-05-60
                           Issued to the Louisiana Department of Labor for
                           Hurricane Katrina Relief

INTRODUCTION

Normally, a Management Letter is provided to be read in conjunction with an
accompanying audit report. However, due to the proactive nature of our current
work related to Hurricane Katrina, we will be issuing Management Letters to
inform the Department, in this case, the Employment and Training Administration
(ETA), of issues/problems we believe should be disclosed to help the
Department’s programs operate efficiently and effectively while reducing the
possibility of fraud, waste, and abuse. We will also use this medium to provide
positive feedback regarding grant operations.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts, resulting in a national disaster. In response to this disaster, on
September 2, 2005, ETA awarded the State of Louisiana a National Emergency
Grant (NEG) to create 10,000 temporary jobs for dislocated workers. The $62.1
million grant, administered by the Louisiana Department of Labor (LDOL), had an
initial release of $20.7 million.

This Management Letter is an interim reporting mechanism and should be read
with the understanding that, once the NEG to LDOL is fully implemented and
accrued expenditures reported, financial or performance audits of the subject
NEG may be performed.
SCOPE

During the period of October 24 through November 3, 2005, we performed work
at the LDOL, 2 Local Workforce Investment Areas (LWIAs), and 6 temporary jobs
worksites (3 for each LWIA) out of the total of 257 worksites operated by the
LWIAs we visited. The worksites were established to provide public service
employment to evacuees in two Southern Louisiana parishes. These worksites
included participants working at local government offices, private non-profit
entities, evacuation shelters, schools, and faith-based organizations. We
interviewed 26 of the 1,308 NEG participants at the LWIAs we visited.

Our goal is to assist ETA in its efforts to ensure that NEG funded programs are
effective and to reduce the potential for fraud, waste, and abuse.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal government in the aftermath of Hurricanes Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be forwarded to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

Positive Issues:

      Local worksite officials commended DOL for the expeditious manner in
       which funds were made available under the NEG. Local officials also
       cited that the authority to use attestations initially for eligibility
       determinations helped to quickly implement the recovery effort.

   •   State monitoring and assistance teams were providing oversight and
       assistance to the local areas.

   •   Local boards were maintaining adequate documentation and oversight to
       ensure proper administration of the NEG participants.

   •   Local area worksites were actively overseeing and monitoring their grant
       activities.

   •   All job worksites and job positions were allowable and all participants
       interviewed met eligibility criteria.




                                         2
Potential Worksite and Long-Term Assistance Issues:

   •   Local officials need guidance on allowable temporary employment.

Local officials were not clear as to what constitutes appropriate work activities for
NEG participants once the need for direct “humanitarian assistance to evacuees”
decreases. Some work activities we reviewed did not relate directly to hurricane
relief. These included grounds-keeping, facilities maintenance, landscaping, and
child care (caring for children of local residents). Although these activities
complied with amended program provisions that allow for employment with any
public sector employer, local officials expressed that they need additional
guidance because non-hurricane-related activities may become more prominent
as shelters and other relief centers cease to function.

   •   Local officials are concerned about transitioning clients to regular
       WIA activities.

Because LDOL has imposed a 12-week employment maximum on NEG public
service employment (PSE) jobs, which will be reached in the near future, and
because of lack of communication regarding future funding, local officials
expressed a major concern about transitioning clients to regular WIA activities.

We interviewed participants at NEG worksites and determined there is a mix of
participants who 1) plan to return to their former residences, 2) have decided that
they will not return, and 3) still do not have enough information about what will
happen with their homes as a basis for their decisions to stay or return.

   1) For those planning to return to their previous residence, many would
      prefer to retain their current employment status (beyond 12 weeks) to
      provide stability for their families. The LDOL-imposed 12 week maximum
      on NEG PSE will be reached in the near future.

   2) For participants who have decided to remain in their current locality,
      regular WIA activities leading to permanent employment is the desired
      next step. Local officials want definitive guidance on program options for
      participants following the NEG temporary jobs, which will end in the next
      month.

   3) For the other participants, it could still be a substantial period of time
      before they can decide what they will do in the long run. Even though
      some employers in the hurricane-affected areas are returning to operation,
      housing and transportation issues overshadow their feasibility in returning
      employees to the area.

The different scenarios represented above reflect the challenges in providing
more long-term assistance.


                                          3
   •   There does not appear to be any long-range plan for the evacuees.

The main issue concerning the transition period is the lack of definitive planning.
There are many circumstances that do not fit within normal guidelines, such as
when a person is no longer considered an evacuee. Local area staff is unsure as
to what funding streams will best serve these individuals, and what additional
funding may be obtained. Also, because activities have been focused on the
NEG expenditures, unspent regular WIA funds have accumulated.

Another factor to consider in long-term assistance to the affected areas is the
economic impact to areas such as Baton Rouge. The area’s population has
increased significantly since the hurricane. However, the huge influx of new
residents has vastly outstripped the availability of jobs, pushing the region’s
unemployment up significantly. The fact that many of the evacuees may stay in
the area long-term makes this a more pressing problem.

   •   Concerns over NEG funds distribution were expressed.

We heard concerns that NEG funds were not equitably distributed to local areas.
One local area indicated that they could have served hundreds more evacuees,
but were limited by funding constraints when they knew that other areas had not
used the funding they were allotted.

   •   Some participants may have continued to receive Disaster
       Unemployment Assistance (DUA) payments after starting public
       service employment positions under the NEG.

According to both participants and LWIA officials, in some cases DUA payments
continued after participants entered into NEG temporary jobs.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training evaluate
the issues raised in this Management Letter to determine how they might be
addressed by ETA and/or State officials, particularly as they relate to the
communication of NEG expectations, and options for transitioning participants to
strategies aimed at increasing their long-term employment outcomes.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that a Katrina Team had been organized by the
Office of National Response to assist impacted states in resolving questions, and
to participate in monitoring the states’ activities. The Assistant Secretary
specifically agreed to: provide technical assistance to states and local


                                        4
communities to proactively develop strategies for returning affected individuals to
the workforce; work with the State on the issue related to the within-State
distribution of funds; and continue to provide guidance to the states regarding
allowable temporary employment situations and other employment options. The
Assistant Secretary’s response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of the results of ETA’s actions as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment


cc:   Steven Law
      Deputy Secretary

      Joseph Juarez
      Regional Administrator

      John Warner Smith
      Louisiana Secretary of Labor




                                         5
6
7
